No. 19-66
INTHE

$Upreme (!Court of tbe Wniteb $late~
GEORGE

Q. RICKS,

Petitioner,
V.
IDAHO CONTRACTORS BOARD, ET AL.,

Respondents.
CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 12th day of August, 2019, I caused three copies of the Brief of Amici Curiae
Ten Legal Scholars in Support of Petitioner to be served by third-party commercial
carrier on the counsel identified below, and caused an electronic version to be
transmitted to the counsel identified below, pursuant to Rule 29.5 of the Rules of this
Court. All parties required to be served have been served.
ERIC S. BAXTER
ERIC C. RAsSBACH
DANIEL H. BLOMBERG
JOSEPH C. DAVIS
THE BECKET FUND FOR RELIGIOUS
LIBERTY

1200 New Hampshire Ave. NW, Suite
700
Washington, DC 20036
(202) 955-0095
ebaxter@becketlaw.org
Counsel for Petitioner

LAWRENCE G. WASDEN
LESLIE M. HAYES
STEVEN OLSEN
KEN JORGENSEN
ATTORNEY GENERAL
STATE OF IDAHO

700 W. Jefferson Street, Suite 210
P .O. Box 83720
Boise, Idaho 83720
(208) 334-2400
lawrence.wasden@ag.idaho.gov
Counsel for Respondents

